No. 19-161
In The

^xxpreme Olourl nf
DEPARTMENT OF HOMELAND SECURITY, et al.,
Petitioners,
V.

VIJAYAKUMAR THURAISSIGIAM,
Respondent.
CERTIFICATE OF SERVICE
I, Matthew E. Price, hereby certify that I am a member of the Bar of this Court,
and that I have this 22nd day of January 2020, caused three copies of the Brief for Amici
Curiae Immigration and Human Rights Organizations In Support of Respondent to be
served via overnight mail and an electronic version of the document to be transmitted
via the Court’s electronic filing system to:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@U SDOJ.gov
Counsel for Department of Homeland
Security, et al.

Lee Gelernt
American Civil Liberties Union
125 Broad St.
New York, NY 10004-2400
(212) 549-2616
lgelernt@aclu.org
Counsel for Vijayakumar
Thuraissigiam

Matthew E. Price

